  UNITED STATES SPECIAL OPERATIONS COMMAND’S REPORTING OF
      REAL AND PERSONAL PROPERTY ASSETS ON THE FY 2000
           DOD AGENCY-WIDE FINANCIAL STATEMENTS


Report No. D-2001-169                          August 2, 2001




             Office of the Inspector General
                 Department of Defense
         Additional Copies

         To obtain additional copies of this audit report, visit the Inspector General, DoD
         Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
         Distribution Unit of the Audit Followup and Technical Support Directorate at
         (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

         Suggestions for Future Audits

         To suggest ideas for or to request future audits, contact the Audit Followup and
         Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
         fax (703) 604-8932. Ideas and requests can also be mailed to:

                           OAIG-AUD (ATTN: AFTS Audit Suggestions)
                            Inspector General, Department of Defense
                               400 Army Navy Drive (Room 801)
                                   Arlington, VA 22202-4704

         Defense Hotline

         To report fraud, waste, or abuse, contact the Defense Hotline by calling
         (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
         by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
         The identity of each writer and caller is fully protected.




Acronyms
ADP                      Automated Data Processing
AFEMS                    Air Force Equipment Management System
AFSOC                    Air Force Special Operations Command
C4IAS                    Command, Control, Communications, Computers, and Intelligence
                          Automated System
DFAS                     Defense Finance and Accounting Service
FMR                      Financial Management Regulation
NSWC                     Naval Special Warfare Command
ODO                      Other Defense Organizations
OUSD(AT&L)               Office of the Under Secretary of Defense for Acquisition,
                          Technology, and Logistics
PP&E                     Property, Plant, and Equipment
SSAVIE                   Special Operations Forces Sustainment, Asset Visibility, and
                          Information Exchange
USASOC                   U.S. Army Special Operations Command
USD(C)                   Under Secretary of Defense (Comptroller)
USSOCOM                  U.S. Special Operations Command
                          Office of the Inspector General, DoD
Report No. D-2001-169                                                 August 2, 2001
  (Project No. D2001FH-0044.001)

        United States Special Operations Command’s Reporting of Real
                 and Personal Property Assets on the FY 2000
                    DoD Agency-Wide Financial Statements

                                   Executive Summary

Introduction. This audit was performed to support the requirements of the Chief Financial
Officers Act of 1990, as amended by the Federal Financial Management Act of 1994, which
requires DoD and other Government agencies to prepare consolidated financial statements.
This report is the second in a series of reports on accounting for property, plant, and
equipment in the unified combatant commands. The first report indicated that Headquarters,
Transportation Command, and the Air Mobility Command could not support the amounts
reported in the FY 2000 DoD Agency-Wide Financial Statements for property, plant, and
equipment. This audit supports the FY 2000 DoD Agency-Wide Financial Statements, which
include a reporting entity entitled “Other Defense Organizations.” The Other Defense
Organizations-General Fund includes a consolidation of financial information from various
Defense organizations and funds that use the Department 97 symbol. The U.S. Special
Operations Command is the only unified combatant command that is included in the Other
Defense Organizations-General Fund. For FY 2000, the Defense Finance and Accounting
Service reported $675.8 million in assets for the U.S. Special Operations Command.

Objectives. Our overall audit objective was to determine the accuracy of the unified
combatant commands’ reporting of real and personal property on the FY 2000 DoD Agency-
Wide Financial Statements. This report focuses solely on the U.S. Special Operations
Command. Our specific audit objective was to determine the accuracy of the U.S. Special
Operations Command’s reporting of real and personal property on the FY 2000 DoD Agency-
Wide Financial Statements. We also reviewed the management control program as it related to
real and personal property reporting.

Results. The U.S. Special Operations Command did not accurately report the value of its real
property in the supporting data that should be used to prepare the FY 2000 DoD Agency-Wide
Financial Statements. As a result, the U.S. Special Operations Command understated the
amount of the real property that it occupied by approximately $1.2 billion.

The U.S. Special Operations Command did not accurately report the value of its personal
property in its supporting data for the FY 2000 DoD Agency-Wide Financial Statements. In
addition, the Defense Finance and Accounting Service Indianapolis did not use the personal
property data that the U.S. Special Operations Command reported. As a result, the
U.S. Special Operations Command and the Defense Finance and Accounting Service
Indianapolis understated the amount of personal property on the FY 2000 DoD Agency-Wide
Financial Statements by approximately $79 million. For details of the audit results, see the
Finding section of the report. See Appendix A for details of the review of the management
control program.

On December 6, 2000, DoD established the Property, Plant, and Equipment Program
Management Office to coordinate and oversee DoD efforts to resolve existing property, plant,
and equipment accountability, accounting, and reporting problems. This office is composed of
personnel from the Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics and the Under Secretary of Defense (Comptroller). Because of the Property, Plant,
and Equipment Program Management Office’s efforts to change the preponderant use policy,
we are not making recommendations on real property reporting for U.S. Special Operations
Command.

Summary of Recommendations. We recommend that the Under Secretary of Defense for
Acquisition, Technology, and Logistics and the Under Secretary of Defense (Comptroller)
provide clarifying guidance on how to distinguish between the property, plant, and equipment
of the U.S. Special Operations Command and the Military Departments. We also recommend
that clarifying guidance be provided on how to differentiate between general property, plant,
and equipment and national defense property, plant, and equipment; and how to account for
and report automated data processing equipment. We recommend that the Commander in
Chief, U.S. Special Operations Command, develop an infrastructure for financial statement
reporting, and develop guidance for reporting real and personal property data to the Defense
Finance and Accounting Service Indianapolis.

Management Comments. The Under Secretary of Defense for Acquisition, Technology, and
Logistics concurred with the recommended policy changes in definitions and criteria for
property, plant, and equipment, but disagreed that the Draft DoD 5000.nn-M, “Property,
Plant, and Equipment,” should be changed. The Under Secretary stated that the policy
changes should be made to the “DoD Financial Management Regulation.” The Under
Secretary agreed to work with the Under Secretary of Defense (Comptroller) to ensure that
such changes were made.

The Under Secretary of Defense (Comptroller) agreed to clarify policy on identifying what
organization should report specific property, plant, and equipment, and to include language to
more clearly assist the DoD Components in reporting automated data processing equipment.
However, the Under Secretary did not agree to provide clarifying policy on the definition of
property, plant, and equipment as general or National Defense until the Federal Accounting
Standards Advisory Board issues its new Federal accounting standard.

The Commander in Chief, U.S. Special Operations Command, concurred with the
recommendations and has already instituted plans to baseline its inventory reporting
requirements and plans to develop and issue guidance for property, plant, and equipment
reporting throughout the Command.

Audit Response. We consider the comments from the Under Secretary of Defense for
Acquisition, Technology, and Logistics; the Under Secretary of Defense (Comptroller); and
the Commander in Chief, U.S. Special Operations Command, to be responsive to the
recommendations. Based on management comments, we modified our report where
appropriate. See the Finding section for a discussion of the management comments, and the
Management Comments section for the complete text.


                                               ii
Table of Contents

Executive Summary                                                             i


Introduction
     Background                                                               1
     Objectives                                                               1

Finding
     Accuracy of USSOCOM Real and Personal Property Assets
      on the FY 2000 DoD Agency-Wide Financial Statements                     3

Appendixes
     A. Audit Process
         Scope and Methodology                                               17
         Management Control Program Review                                   18
         Prior Coverage                                                      19
     B. Report Distribution                                                  20

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   23
     Under Secretary of Defense (Comptroller)                                25
     United States Special Operations Command                                27
Background
     This audit was performed to support the requirements of Public Law 101-576, the
     “Chief Financial Officers Act of 1990,” November 15, 1990, as amended by Public
     Law 103-356, the “Federal Financial Management Act of 1994,” October 13, 1994. In
     accordance with the Chief Financial Officers Act of 1990, the Inspector General, DoD,
     is responsible for auditing the DoD Consolidated Financial Statements. Accurate
     reporting of all real and personal property in the Military Departments’ real and
     personal property databases is essential to DoD receiving favorable audit opinions.

     This report is the second in a series of reports on accounting for general property,
     plant, and equipment in the unified combatant commands. The first report indicated
     that Headquarters, U.S. Transportation Command, and the Air Mobility Command
     could not support the amounts reported in the FY 2000 DoD Agency-Wide Financial
     Statements for property, plant, and equipment.

     Operational control of the U.S. combat forces is assigned to the nation’s unified
     combatant commands. A unified combatant command is composed of forces from two
     or more Services, has a broad and continuing mission, and is normally organized on a
     geographical basis. The number of unified combatant commands is not fixed by law or
     regulation and may vary from time to time. Currently, there are nine unified combatant
     commands. The U.S. Special Operations Command (USSOCOM) is one of the nine.

     On April 16, 1987, USSOCOM was formally established as a unified combatant
     command at MacDill Air Force Base, Tampa, Florida. USSOCOM is composed of
     Army, Navy, and Air Force Special Operations Forces. The USSOCOM mission is to
     support the geographic commanders in chief, ambassadors and their country teams, and
     other Government agencies by preparing special operations forces to successfully
     conduct special operations, including civil affairs and psychological operations. All
     special operations forces of the Army, Navy, and Air Force based in the United States
     were placed under USSOCOM.

     The component commands of USSOCOM are the U.S. Army Special Operations
     Command (USASOC), the Naval Special Warfare Command (NSWC), and the Air
     Force Special Operations Command (AFSOC). The USASOC, headquartered at Fort
     Bragg, North Carolina, commands active and Army Reserve Special Forces. USASOC
     is responsible to USSOCOM for the readiness of Special Forces, Rangers, and special
     operations aviation, civil affairs, and psychological operation units for deployment to
     unified combatant commands around the world. The NSWC, located in Coronado,
     California, is responsible to USSOCOM for the readiness of active and Naval Reserve
     special warfare forces. The AFSOC, located at Hurlburt Field, Florida, is responsible
     to USSOCOM for the readiness of active, Air Force Reserve, and Air National Guard
     special operations forces for worldwide deployment.

Objectives
     The overall audit objective was to determine the accuracy of the unified combatant
     commands’ reporting of real and personal property on the FY 2000 DoD Agency-Wide


                                            1
Financial Statements. This report focuses solely on USSOCOM. We also reviewed the
management control program as it related to the reporting of real and personal
property. Our specific audit objective was to determine the accuracy of the USSOCOM
reporting of real and personal property on the DoD Agency-Wide financial statements.
See Appendix A for a discussion of the audit scope and methodology and the review of
the management control program.




                                      2
           Accuracy of USSOCOM Real and Personal
           Property Assets on the FY 2000 DoD
           Agency-Wide Financial Statements
           USSOCOM did not accurately report the value of its real and personal property
           in the financial reports provided to the Defense Finance and Accounting Service
           (DFAS) Indianapolis. In addition, DFAS did not use USSOCOM financial data
           for personal property in generating the balance sheets for the Other Defense
           Organizations and the FY 2000 DoD Agency-Wide Financial Statements. These
           problems occurred because:

              •   USSOCOM had not implemented specific guidance on the application of
                  the preponderant use policy for real property;

              •   DoD changed the reporting requirements for USSOCOM without
                  providing USSOCOM, as a unified combatant command, the guidance
                  and authority needed to properly execute the reporting requirements; and

              •   USSOCOM did not have the infrastructure needed to accurately report
                  real and personal property.

           As a result, in USSOCOM financial data, an estimated $1.2 billion in real
           property was not reported and the value of USSOCOM personal property was
           understated by at least $79 million.

DOD Financial Report Compilation
    Uniqueness of USSOCOM. USSOCOM has the responsibility for managing a
    separate major force program through its own separate funding. This separate funding
    ensures that the special operations force program has visibility at the DoD and
    congressional levels. The Commander in Chief of USSOCOM is the sole unified
    commander with responsibility for planning, programming, and budgeting of military
    forces. In addition, the Commander in Chief of USSOCOM is responsible for special
    operations-peculiar equipment, materials, supplies, and services, which have no
    Service-common requirement. The definition of special operations-peculiar also
    includes modifications approved by the Commander in Chief, USSOCOM, for
    application to standard items and services used by other DoD forces; and items and
    services approved by the Commander in Chief, USSOCOM, as critically urgent for the
    immediate accomplishment of a special operations activity.

    USSOCOM is the only unified combatant command reported under the Other Defense
    Organizations (ODO) – General Funds column of the FY 2000 DoD Agency-Wide
    Financial Statements. The financial aspects of the other unified combatant commands
    are reported through their executive agents or in the case of the U.S. Transportation
    Command, under the Working Capital column for ODO.

    In the DoD Agency-Wide financial statements, DFAS includes financial data for the
    ODO General Fund, which includes various DoD organizations not covered in the
    statements required by the Office of Management and Budget. Specifically, the ODO
                                           3
     includes the entities using funds and accounts with Treasury Index No. 97
     (Department 97) appropriations and the portion of the Department 97 funds
     suballocated to the Military Departments.

     DFAS Responsibilities. DoD Regulation 7000.14-R, the “DoD Financial Management
     Regulation” (DoD FMR), volume 6, “Reporting and Policy Procedures,”
     February 1996, defines the roles and responsibilities of DFAS and its customers
     regarding financial statement preparation. Volume 6 requires DFAS to establish
     procedures to ensure that the process for preparing financial statements is consistent,
     timely, and auditable, and that controls are in place to provide for the accuracy of the
     reports. DFAS Indianapolis is the accounting organization responsible for
     consolidating the ODO financial statement data from all DFAS organizations. For
     ODO components such as USSOCOM, each DFAS center reports for its respective
     component.

     USASOC reported the portion of its general property, plant, and equipment (PP&E)
     belonging to units that had not migrated to the Defense Property Accountability System
     to DFAS Orlando. NSWC reported part of its general PP&E data to the Navy
     Financial Management Office for reporting on the Navy financial statements. In
     addition, NSWC responded to a USSOCOM data call and reported general PP&E to
     USSOCOM that it had not reported to the Navy. AFSOC reported PP&E data for
     special operations-peculiar equipment to USSOCOM.

Real Property Guidance, Responsibilities, and Accountability
     USSOCOM did not accurately report the value of its real property in the financial
     reports sent to DFAS Indianapolis. This occurred because USSOCOM had not
     implemented the Under Secretary of Defense (Comptroller) (USD[C]) policy on
     preponderant use. As a result, an estimated $1.2 billion for real property was not
     reported in USSOCOM FY 2000 financial reports to DFAS.

     General PP&E Regulations. The DoD FMR provides accounting guidance for PP&E.
     The regulation states that assets shall be assigned a dollar value that is supported by
     source documents that reflect the cost of all transactions affecting the DoD
     Component’s investment in the general PP&E assets. In addition, the DoD FMR
     includes a section on the “Treatment When the Preponderant User of an Asset is Not
     the Owner or DoD Component that Financed the Asset.” This section states that DoD
     Components shall only report predominately used general PP&E assets owned by other
     DoD Components when the cost of those assets, taken as a whole, are material to the
     predominant user Component’s financial statements. This is in keeping with the
     concept that each entity’s full cost should incorporate the full cost of goods and services
     that it receives from other entities. The recognition of full cost is limited to material
     items or amounts that are significant to the receiving entity and form an integral or
     necessary part of the receiving entity’s output.

     In the case of USSOCOM and its components, they do not own real property, but they
     are the preponderant users of some real property on Army, Navy, and Air Force
     installations. Even though USSOCOM may have financed the construction of a



                                              4
building or the renovation of an asset in some cases, the Military Departments still own
the property and maintain the detailed records for it. As a result, USSOCOM and its
components must rely on the record keeping of the Military Departments.

Guidance from Headquarters USSOCOM. USSOCOM had not issued implementing
guidance for the preponderant use policy. This occurred because of discussions held
between the USD(C) and USSOCOM. USD(C) gave verbal instructions to USSOCOM
to suspend the financial reporting of real property pending an upcoming change in the
preponderant use policy for real property. As a result, the Military Departments
reported the real property that USSOCOM and its components occupied.

The FY 2000 DoD Agency-Wide Financial Statements were not understated by the
value of real property occupied by USSOCOM. However, the USD(C) guidance that
was current as of April 2000 required that USSOCOM report the value of the real
property that it occupied. Because real property was material to USSOCOM, the
omission of the $1.2 billion had a material effect on the USSOCOM financial reports.

Potential Changes in DoD Guidance. On December 6, 2000, DoD established the
PP&E Program Management Office to coordinate and oversee DoD efforts to resolve
existing PP&E accountability, accounting, and reporting problems. This office is
composed of personnel from the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics (OUSD[AT&L]) and the USD(C). Because of
the current PP&E Program Management Office’s efforts to change the preponderant
use policy, we are not making recommendations on real property reporting for
USSOCOM.

Estimated Reportable Amounts. To determine whether real property was material to
USSOCOM financial reports, we focused our audit effort on obtaining an estimate for
the dollar value of the USSOCOM occupied buildings to include improvements and
renovation costs. We held discussions with engineering personnel to obtain the
acquisition cost of the completed buildings, improvements, and renovations. This data
is listed in Table 1.

                      Table 1. USSOCOM Facilities and Estimated Costs

       Component                       Number of Facilities                     Acquisition Costs

       USSOCOM                                       6                            $     8,507,298
       USASOC                                    1,983*                               801,309,909
       NSWC                                        210                                169,160,520
       AFSOC                                       433                                262,130,556

        Total                                    2,632                            $1,241,108,283

       *Due to the Integrated Facilities System database format, both additions and modifications were
       uniquely included in the facilities count total.




                                             5
Personal Property Guidance, Responsibilities, and Accountability
     FY 2000 was the first year that the USD(C) required that USSOCOM provide its
     financial information for inclusion in the DoD Agency-Wide financial statements.
     However, neither the USD(C) nor the OUSD(AT&L) had developed the policies
     needed to meet the unique property accountability and reporting requirements of a
     unified combatant command. DoD focused its policies for property accountability and
     reporting toward the Military Departments. In addition, to accurately report all of its
     property, USSOCOM was dependent on the property accountability systems of the
     Military Departments. OUSD(AT&L) should have provided guidance to Military
     Departments defining what property should be reported by USSOCOM and what
     property should be reported by the Military Departments, as well as clarification of
     property classification. Without this guidance, USSOCOM could not develop guidance
     for dissemination to its components. Consequently, each USSOCOM component
     adhered to DoD or Service-specific guidance, neither of which was entirely applicable
     or adequate.

     DoD Guidance. DoD did not have criteria to enable USSOCOM and its components to
     consistently determine whether USSOCOM or the Military Departments were
     accountable for the personal property that USASOC, NSWC, and AFSOC used.
     Specifically, the DoD FMR did not provide adequate property accountability and
     reporting guidance for a unified combatant command such as USSOCOM. Draft
     DoD 5000.nn-M, “Property, Plant, and Equipment Accountability” (PP&E manual),
     October 1999, was more responsive than the DoD FMR on the requirements for
     accountability records and accountability systems. However, the PP&E manual did not
     completely resolve the shortcomings in the DoD PP&E policy. In a January 19, 2000,
     memorandum, the OUSD(AT&L) directed the PP&E manual’s implementation
     although it has not been finalized.

             OUSD(AT&L) Policy Responsibilities. The OUSD(AT&L) is responsible for
     PP&E accountability including systems policy and oversight. The OUSD(AT&L) has
     developed and issued the PP&E manual to standardize accountability and reporting
     procedures for PP&E across the DoD Components to include unified combatant
     commands. However, the PP&E manual did not clearly define property accountability
     and reporting when both the Military Department and a unified combatant command
     used the same reportable property. In addition, it did not clearly define the property
     classification differences between general PP&E and national defense PP&E.

             USD(C) Policy Responsibilities. The USD(C) is responsible for issuing
     guidance to DoD Components that governs financial management by establishing and
     enforcing requirements, principles, standards, systems, procedures, and practices
     necessary to comply with financial management statutory and regulatory requirements
     applicable to DoD. The USD(C) issued the DoD FMR for this purpose. The USD(C)
     regulation goes with the PP&E manual for property financial reporting. However, the
     USD(C) did not provide further clarification on property reporting or property
     classification.

            DoD Components Policy Responsibilities. The DoD Components are required
     to ensure that both sets of policies are followed. The OUSD(AT&L) and the USD(C)
     must approve the implementing instructions or guidance before issuance. The Military
     Departments provided implementing regulations; however, USSOCOM and its
                                            6
components used multiple criteria sources with generic DoD or Service-specific focus,
and did not have any overarching property accountability and reporting guidance that
was applicable command-wide.

Need for Better Guidance for USSOCOM. The draft PP&E manual sets the
requirements needed to ensure that there is sufficient information to allow DoD
financial managers to properly report PP&E information in annual financial statements.
The main requirement is the establishment of accountable officers and accountability
records by the DoD Components. The accountable officer is responsible for the proper
use, care, custody, safekeeping, record keeping, and disposition of the assets. The
accountability system must have the capability to allow the DoD Components to
calculate depreciation or interface with a system that calculates depreciation. The
system must also have the capability to modify the capitalization threshold, if the
threshold changes. In addition, the accountability system shall categorize PP&E as
general or national defense upon delivery or acceptance to an end user.
Property Accountability. USSOCOM component commands used the regulations of
their executive agents to determine which property should be reported to USSOCOM
Headquarters versus the Military Departments. The use of different regulations created
the inconsistency in reporting.

        USASOC. USASOC used Army Regulation 71-32, “Force Development and
Documentation – Consolidated Policies,” March 3, 1997, to distinguish between Army
and USSOCOM-accountable general PP&E. The regulation states that the Tables of
Organization and Equipment and Tables of Distribution and Allowance are the sources
for Army equipment authorization. The special operations-peculiar equipment as well
as the Service-common equipment used by USASOC were included in the Tables of
Organization and Equipment and Tables of Distribution and Allowances. As a result,
USASOC considered the Army to be the owner of all of its equipment and
consequently, responsible for reporting the equipment on Army general fund financial
statements.

        NSWC. NSWC used Navy policy and guidance for reporting general PP&E.
On September 15, 2000, the Department of the Navy issued a data call for the FY 2000
Department of the Navy General Fund Financial Statements. For PP&E, the Navy
tasked NSWC to report only those items not included in Navy systems and to exclude
all items reported by other Navy entities. However, the instructions did not take
USSOCOM into consideration. NSWC uses equipment purchased by both USSOCOM
and the Navy. NSWC reported $6.9 million of general PP&E to the Navy because that
equipment was not included in the Navy systems. However, none of the DoD guidance
could be used to determine to whom the $6.9 million of equipment belonged. In
addition, NSWC did not report $1.7 million of the construction and engineering support
equipment because the equipment was resident in a Navy system.

        AFSOC. AFSOC used Air Force policy and guidance for reporting general
PP&E. Air Force Manual 23-110, volume 4, part 2, “Air Force Equipment
Management System” (AFEMS), chapter 1, January 4, 2000, states that AFEMS
enables the Air Force to determine, authorize, account for, and report the types and
quantities of equipment required for accomplishing the Air Force mission. The
Air Force manual does not specify what equipment should be reported by USSOCOM.
Because AFSOC is not a reporting entity within AFEMS, AFEMS did not have the
special coding needed to extract USSOCOM funded assets. Therefore, to identify the
                                       7
assets for which USSOCOM was accountable, AFSOC logistics personnel first
assembled a composite listing of USSOCOM funded items. Secondly, they extracted
authorization data from AFEMS containing all assets loaded with AFSOC as the
owning command. The AFSOC logistics personnel compared the list of AFSOC
authorized assets to the list of USSOCOM funded assets to generate a single listing of
items that were USSOCOM funded and special operations-peculiar.

Property Classification. For FY 2000, only general PP&E had to be reported on the
balance sheet. However, in addition to the ambiguity of what property should be
reported by USSOCOM, the question of what is general PP&E as opposed to national
defense PP&E surfaced. In addition, USSOCOM also needed guidance to consistently
define Automated Data Processing (ADP) equipment.

        General or National Defense PP&E. USSOCOM lacked the guidance for
determining whether to classify PP&E as general or national defense PP&E. The
DoD FMR and the draft PP&E manual’s definition for mission support PP&E, one of
the national defense categories of PP&E, fit many equipment items that would
otherwise be classified as general PP&E. Some of NSWC’s construction and
engineering support equipment and about 50 percent of AFSOC’s aircraft maintenance
equipment that was special operations-peculiar could be classified as mission support
PP&E. The critical difference between mission support equipment and general PP&E
lies in whether the equipment is deployable and how deployable is defined. Mission
support PP&E is defined as deployable PP&E that is essential to the effective operation
of a weapons system or is used by the Military Departments to effectively perform a
military mission. The unique structure of USSOCOM means that many of the units of
its service components are permanently deployed outside of the United States. In many
cases as with AFSOC maintenance equipment, a piece of equipment was considered
general PP&E if it was assigned to a unit at Hurlburt Field, Florida, but was considered
to be national defense PP&E if it was assigned to an overseas unit. Without
implementing guidance, USSOCOM Headquarters and each of its Service components
will continue to categorize the equipment differently.

        ADP Systems or ADP Components. USSOCOM did not have guidance to
apply the FMR criteria on accounting for and reporting ADP equipment. The FMR
states that “an ADP system for accounting and financial statement reporting purposes
consists of dedicated equipment or components linked together and used in the
performance of a service or function in support of a mission of a DoD Component,
command, or installation.” In addition, the guidance states that ADP systems for the
purpose of this definition and the requisite accounting treatment are typically referred to
as mainframe or mini computer systems, and generally, do not include personal
computers linked to a central server and used in an office environment. USSOCOM
needed guidance that specifically addressed the kind of ADP equipment that the
command used, for example, the Command, Control, Communications, Computers,
and Intelligence Automated System (C4IAS). C4IAS is the local area network and
wide area network for USSOCOM, and is comprised of personal computers linked to
central servers. C4IAS is a Special Operations Forces-wide system of ADP equipment
and databases. The system integrates the USSOCOM automation information systems
into a management information system that supports the interchange of knowledge
among commanders and operations and support personnel. Although the C4IAS uses
personal computers, the high cost components of the systems are the servers and other
major end items. The FMR does not provide clear guidance on whether the C4IAS can
be considered as an ADP system. Also, it is unclear whether USSOCOM should
                                         8
           aggregate the C4IAS major end items to determine how to define the system. For
           example, should the system be defined as the entire local area network and wide area
           network, excluding the personal computers and peripheral items. Because of the lack of
           clear guidance, USSOCOM did not categorize the C4IAS as an ADP system or as ADP
           components. As a result, USSOCOM and its Service Components did not report the
           C4IAS equipment for inclusion on the FY 2000 DoD Agency-Wide Financial
           Statements. The C4IAS had an acquisition cost of at least $40 million, excluding the
           personal computers and peripheral equipment.

USSOCOM Personal Property Infrastructure
           USSOCOM had not developed an infrastructure, specifically a database and processes
           and procedures for property accountability that would facilitate accurate general PP&E
           reporting at the headquarters level. This situation occurred because USSOCOM had
           not implemented the draft PP&E manual that required that each organization establish a
           system that would account for property. The PP&E manual has been approved and is
           in the process of being issued in final form. As previously stated, the OUSD(AT&L)
           directed in a January 19, 2000, memorandum that the PP&E manual be implemented
           although it has not been finalized. The PP&E manual states that DoD components will
           maintain a formal set of PP&E accountable records in an accountability system. Some
           of the minimum requirements for accountability PP&E records include asset
           classification as general or national defense PP&E, acquisition cost and date, asset
           description, location, and quantity information.

           In addition, the equipment used by the component commands was accounted for in the
           individual Services’ accountability systems. USSOCOM had not developed the
           processes to retrieve accurate, complete, and consistent data from the Service systems,
           or to analyze the data received. Specifically, USSOCOM and its components used
           multiple databases, such as logistical and ADP systems to capture general PP&E data,
           and of the available databases, only one had an accounting module with the requisite
           data elements and controls for general PP&E financial statement reporting.

           Special Operations Forces Sustainment, Asset Visibility, and Information
           Exchange. USSOCOM use of a logistics system did help provide some information on
           special operations-peculiar equipment. USSOCOM had a logistics system called the
           Special Operations Forces Sustainment, Asset Visibility, and Information Exchange
           (SSAVIE) 1 which provided a support system for USSOCOM acquisition and
           sustainment programs. The purpose of SSAVIE was to provide a single site that
           identified special operations-peculiar equipment and its support structure; and connected
           to repair and supply support sites, program managers, and special operations logistics
           data.




1
    SSAVIE is a logistics support system, not a property accountability system.

                                                          9
USSOCOM also used SSAVIE to provide baseline personal property data that the
command used in its FY 2000 data call to its components for the Chief Financial
Officer Act financial statement reporting.

USSOCOM ADP databases. The USSOCOM used ADP databases for tracking its
ADP equipment, but identified several substantive issues on ADP equipment
accountability and control; specifically that:

    •   hardware and software were acquired via multiple fund sources and delivered
        to individual offices without appropriate property labels and barcode
        information,

    •   multiple databases were used to capture duplicate information,

    •   inventory data were not complete nor was there an automated capability to
        access all repositories to generate information for decision-makers,

    •   directives and regulations were outdated and did not reflect the current
        Headquarters USSOCOM organizational structure, and

    •   USSOCOM lacked clearly defined procedures and tools and offices of primary
        responsibility to ensure accountability and control of inventory.

The USSOCOM proposed corrective actions included establishing a baseline of the on-
hand inventory, identifying procedures to ensure control of baseline information, and
documenting the policy in USSOCOM directives.

In addition to the issues that USSOCOM identified, which were substantiated during
this audit, the command had other ADP issues. For example, the ADP databases did
not contain acquisition costs or dates, or depreciation information. The ADP database
inadequacies made it impossible to determine the net book value of the $40 million of
C4IAS equipment using either an ADP system or component approach.

Military Department Databases. USSOCOM used a combination of Service-specific
property accountability systems at each of its components, in conjunction with its own
database of special operations-peculiar equipment. Each Military Department has at
least one database for capturing personal property. However, the USSOCOM internal
controls over the process did not consider the comparability or consistency of the data
from the disparate systems. Each of the Service systems tracked equipment by systems
and policies that were different from those of the other Services. Consequently,
USSOCOM did not have assurance that all of the equipment was included in a property
accountability system.

Table 2 lists the USSOCOM and service component databases and summarizes the
varied sources of personal property data. The table also highlights the fact that:

    •   general PP&E data were fragmented,

    •   USSOCOM did not have an automated capability to access and compile all
        general PP&E data to generate financial statement data, and


                                       10
        •   USSOCOM lacked clearly defined procedures and tools to ensure accountability
            and control of general PP&E.

                           Table 2. USSOCOM and Component Databases

            Component           Database          Equipment                       Accounting
                                                    Type                           System
                                                                                  Affiliated

            HQ SOCOM            ADP              ADP Equipment                        N
            HQ SOCOM            AFEMS            General PP&E (Varied)                N
            HQ SOCOM            SSAVIE           Special Operations Forces PP&E       N
            USASOC              DPAS             General PP&E (Varied)                Y
            USASOC              SPBS-R           National Defense PP&E                N
            NSWC                ADP              ADP Equipment                        N
            NSWC                CASEMIS          CESE                                 N
            NSWC                TOA              General PP&E (Varied)                N
            AFSOC               AFEMS            General PP&E (Varied)                N
            AFSOC               IPMS             ADP Equipment                        N
            AFSOC               MEDLOG           Medical Equipment                    N

            CASEMIS Construction and Engineering Support Equipment Management
                      Information System
            CESE    Construction and Engineering Support Equipment
            DPAS    Defense Property Accountability System
            HQ       Headquarters
            IPMS     Information Processing Management System
            MEDLOG Medical Logistics System
            SPBS-R  Standard Property Book System - Revised
            TOA     Table of Organization and Allowance


USSOCOM Personal Property Reporting
    Neither USSOCOM nor DFAS Indianapolis had established management controls that
    identified how USSOCOM personal property value should be reported to DFAS
    Indianapolis for inclusion in the DoD Agency-Wide financial statements. For FY 2000,
    DFAS Indianapolis used data calls for obtaining general PP&E data for the ODO
    general fund financial statements. USSOCOM initiated the data call to its components
    as a result of the data call from DFAS Indianapolis. However, the data call responses
    from the USSOCOM components did not provide consistent and accurate information.
    This situation occurred because USSOCOM did not have guidance to direct the
    components to report personal property data to USSOCOM so that it could report to
    DFAS Indianapolis. As a result, USSOCOM reported $50 million for personal
    property. However, the $50 million reflected the acquisition cost only, and did not
    include amounts for annual depreciation, or a prior period adjustment for the
    accumulated depreciation that had not been previously reported. In addition, the
    $50 million did not reflect the value of all of USSOCOM reportable personal property.

    The DFAS Indianapolis team that was responsible for ODO did not include the
    USSOCOM reported personal property in the DoD Agency-Wide balance sheet. DFAS

                                            11
           did not include the personal property because the team did not believe that the assets
           that USSOCOM reported via its data call response belonged to USSOCOM. DFAS
           Indianapolis’ position was that the assets were not USSOCOM-owned because only
           USASOC had reported personal property through the trial balance process, and the
           equipment was associated with Army fiscal station numbers. In addition, DFAS
           Indianapolis interpreted the property accountability guidance in the DoD FMR to mean
           that the Military Departments owned the equipment that the USSOCOM components
           used. As a result of the USSOCOM and DFAS management control issues, at least
           $79 million of USSOCOM personal property was not included in the DoD
           Agency-Wide financial statements.

           Table 3 provides the audit estimates of the personal property that USSOCOM should
           have reported. The difference in the audit estimates and the USSOCOM reported
           amounts occurred because USSOCOM did not include the costs of two major systems,
           SCAMPI2 (not an acronym) and C4IAS. In addition, USSOCOM reported personal
           property quantities that did not match those that the executive agents for each
           component command provided to us. Table 3 also illustrates the fact that reporting by
           USSOCOM did not reflect the net book value of the personal property for which
           USSOCOM was accountable. The audit estimate also does not reflect net book value,
           but reflects acquisition costs for the equipment because depreciation information was
           not available.

                                 Table 3. Calculation and Comparison of USSOCOM
                                              Personal Property Costs

                   Component                  Audit Estimates            USSOCOM Results

                   USSOCOM-Wide
                    SCAMPI Program1               $15,588,819                              0
                    C4IAS Program                  40,387,650                              0
                   USASOC                           4,301,143                              0
                   NSWC                             3,611,372                      5,210,750
                   AFSOC                           18,707,395                     44,799,017
                       Total                     $82,596,3792                    $50,009,767
                   1
                    USSOCOM reported SCAMPI as National Defense rather than General PP&E, based on their
                   interpretation of its mission.

                   2
                    The $83 million is the audit estimate for the acquisition cost of equipment for which
                   USSOCOM was accountable in FY 2000. We were not able to calculate depreciation to arrive
                   at the book value of the equipment. Of the $83 million acquisition cost, $79 million was not
                   reported on the FY 2000 DoD Agency-Wide Financial Statements.




2
    SCAMPI is a closed community system of communications nodes used to transfer command, control,
    communications, computers, and intelligence data between USSOCOM and its components as well as other
    Government agencies.

                                                        12
Summary
    USSOCOM did not accurately report the value of approximately $1.2 billion of real
    property in the financial statement data that it sent to DFAS Indianapolis. As a result,
    on the DoD Agency-Wide financial statements, the $1.2 billion value of the real
    property that USSOCOM occupied was reflected as assets of the Military Departments
    rather than USSOCOM. Because of the current PP&E Program Management Office’s
    efforts to change the preponderant use policy, we are not making recommendations on
    real property reporting for USSOCOM.

    In addition, neither the OUSD (AT&L) nor USD(C) issued the necessary guidance so
    that USSOCOM could accurately report its personal property. Although USSOCOM
    reported $50 million of personal property, USSOCOM should have reported at least
    $79 million as the acquisition cost of the equipment for which it was accountable. In
    addition, DFAS did not use USSOCOM financial data for personal property in
    generating financial statements. As a result, on the FY 2000 DoD Agency-Wide
    Financial Statements, USSOCOM and DFAS Indianapolis understated the amount of
    the USSOCOM personal property by approximately $79 million.

Management Comments on the Finding and Audit Response
    The Under Secretary of Defense (Comptroller) Comments. The Under Secretary
    disagreed with our assertion that the U.S. Special Operations Command understated the
    amount of real property that it occupied by approximately $1.2 billion. According to
    the Under Secretary, the Command and the Military Departments properly reported
    property based on their respective special operations units.

    Audit Response. Based upon the USD(C) guidance that was current as of April 2000,
    USSOCOM was required to report the value of real property that it occupied.
    Consequently, we consider the finding to be correct. The special operation units that
    occupy property owned by the Military Departments are still part of USSOCOM.
    Unless the guidance is changed, USSOCOM should report all real property where it is
    the predominate user or occupant.

    U.S. Special Operations Command Comments. In our report, we stated that the
    Commander did not report SCAMPI as personal property. The Commander noted that
    USSOCOM reported SCAMPI as National Defense rather than General Property,
    Plant, and Equipment, based on their interpretation of its primary mission. In addition,
    the Commander noted that we used two acronyms C4IAS and C4AIS. The correct
    acronym is C4IAS.

    The Commander stated that in Appendix A, “Management Control Program,” we
    stated that the management controls for reporting real and personal property were not
    adequate to ensure that the general PP&E information was properly reported. In
    response, the Commander stated that to properly develop management controls, clear
    control objectives are required. USSOCOM will establish appropriate controls after the
    USD(C) finalizes its guidance on PP&E.



                                           13
    Audit Response. We corrected our report to state how SCAMPI was reported and to
    use the acronym C4IAS. We also agree with the Commander’s comments on the
    management control program.

Recommendations, Management Comments, and Audit Response
           1. We recommend that the Office of the Under Secretary of Defense for
    Acquisition, Technology, and Logistics, in coordination with the Under Secretary
    of Defense (Comptroller), revise and finalize Draft DoD 5000.nn-M, “Property,
    Plant, and Equipment Accountability,” October 1999, to provide:

                 a. Definitions for distinguishing between the property, plant, and
    equipment of Department 97 entities such as the U.S. Special Operations
    Command and the Military Departments.

                  b. Additional clarification of general property, plant, and
    equipment and the mission support equipment category of national defense
    property, plant, and equipment.

                 c. Criteria on accounting for and reporting automated data
    processing equipment.

    Management Comments. The Under Secretary concurred with the requirements of
    the recommendations but stated that the DoD Financial Management Regulation should
    be changed to effect the policy changes, not the Draft DoD 5000.nn-M. According to
    the Under Secretary, the Draft DoD 5000.nn-M’s purpose is property accountability
    guidance, not accounting and financial statement reporting policy. However, the Under
    Secretary agreed to work with the USD(C) to ensure changes are made to the DoD
    Financial Management Regulation.

    Audit Response. We consider the management comments to be appropriate. After
    further review of the Draft DoD 5000.nn-M, the policies that the draft report requested
    would be better made to the DoD FMR. The Draft DoD 5000.nn-M refers to the DoD
    Financial Management Regulation for any policy that remotely relates to the financial
    statement reporting.

           2. We recommend that the Under Secretary of Defense (Comptroller), in
    coordination with the Office of the Under Secretary of Defense for Acquisition,
    Technology, and Logistics, clarify DoD Regulation 7000.14-R, volume 4, chapter 6,
    “Property, Plant, and Equipment,” August 2000, to provide:




                                           14
             a. Definitions for distinguishing between the property, plant, and
equipment of Department 97 entities such as the U.S. Special Operations
Command and the Military Departments.

Management Comments. The Under Secretary concurred and agreed to include
language to more clearly assist the DoD Components in identifying what organization
should report specific property, plant, and equipment in subsequent revisions to DoD
Regulation 7000.14-R, volume 4, chapter 6, “Property, Plant, and Equipment.”

              b. Additional clarification of general property, plant, and
equipment and the mission support equipment category of national defense
property, plant, and equipment.

Management Comments. The Under Secretary partially concurred with the need for
additional clarification of general property, plant, and equipment and the mission
support equipment category of national defense property, plant, and equipment.
However, the Under Secretary does not want to issue the additional guidance until the
Federal Accounting Standards Advisory Board issues its new Federal accounting
standard.

Audit Response. We consider management comments to be responsive. We agree that
the Federal Accounting Standards Advisory Board needs to decide whether the policy
on property, plant, and equipment categorization needs to be changed. Once a decision
is made, then the Under Secretary can issue additional guidance based on the new
standard, if necessary.

             c. Criteria on accounting for and reporting automated data
processing equipment.

Management Comments. The Under Secretary concurred and agreed to include
language to more clearly assist the DoD Components in reporting on automated data
processing equipment in subsequent revisions to DoD Regulation 7000.14-R, volume 4,
chapter 6, “Property, Plant and Equipment.”

    3. We recommend that the Commander in Chief, U.S. Special Operations
Command, develop:

              a. An infrastructure that facilitates accurate, consistent, and timely
property, plant, and equipment reporting.

Management Comments. The Commander concurred and agreed to develop the
infrastructure needed for accurate, consistent, and timely property, plant, and
equipment reporting. The Comptroller has already acquired the contractual support
needed to define the plan. However, guidance from the Under Secretary of Defense for
Acquisition, Technology, and Logistics and the Under Secretary of Defense
(Comptroller) is needed to fully implement the recommendation.

              b. Command guidance for real and personal property reporting to
ensure that the Command is able to provide Defense Finance and Accounting
Center Indianapolis with accurate, consistent, and timely data.


                                      15
Management Comments. The Commander concurred and agreed to develop
command guidance for real and personal property reporting. Again, to take corrective
actions, Recommendations 1. and 2. need to be finalized.




                                     16
Appendix A. Audit Process

Scope and Methodology
    Work Performed. In this financial-related audit, we evaluated the management
    controls associated with USSOCOM reporting of real and personal property on the
    DoD Agency-Wide financial statements. Specifically, we concentrated on the process,
    procedures, and support for the amounts of property reported in the consolidated ODO
    financial statements for USSOCOM and subsequently the DoD Agency-Wide financial
    statements. During the course of this audit we spoke with and gathered data from
    DFAS, and USSOCOM and its components. USSOCOM components include
    USASOC, NSWC, and AFSOC. We reviewed PP&E portions of the FY 1999 and
    FY 2000 balance sheets and associated footnotes. We reconciled the financial
    statements to the data call results and we reconciled the data call results to the property
    databases. We reviewed policies, procedures, and the management controls over the
    reporting of PP&E, and the Annual Statement of Assurance. Audit analysis showed
    that for FY 2000, USSOCOM was the preponderant user of $1.2 billion in real
    property. USSOCOM also had personal property that we conservatively calculated at
    about $83 million, $79 million of which was not reported on the FY 2000 DoD
    Agency-Wide Financial Statements.

    DoD-Wide Corporate-Level Government Performance and Results Act Goals. In
    response to the Government Performance and Results Act, the Secretary of Defense
    annually establishes DoD-wide corporate-level goals, subordinate performance goals,
    and performance measures. This report pertains to the following goal, subordinate
    performance goal, and performance measures.

           •   FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
               future by pursuing a focused modernization effort that maintains U.S.
               qualitative superiority in key war-fighting capabilities. Transform the force
               by exploiting the Revolution in Military Affairs, and reengineer the
               Department to achieve a 21st century infrastructure. (01-DoD-2)

                   •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
                       financial and information management. (01-DoD-2.5)

                   •   FY 2001 Performance Measure 2.5.1: Reduce the number of
                       noncompliant accounting and financial systems. (01-DoD-2.5.1)

                   •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
                       opinions on financial statements. (01-DoD-2.5.2)

    DoD Functional Area Reform Goals. Most major DoD functional areas have also
    established performance improvement reform objectives and goals. This report pertains
    to achievement of the following functional area objective and goal.

           •   Financial Management Area. Objective: Strengthen internal controls.
               Goal: Improve compliance with the Federal Managers’ Financial Integrity
               Act. (FM-5.3)

                                            17
    General Accounting Office High-Risk Area. The General Accounting Office has
    identified several high-risk areas in DoD. This report provides coverage of the
    Financial Management high-risk area.

    Use of Computer-Processed Data. To achieve the audit objectives, we relied on
    computer-processed data in several systems. We relied on the data from the Standard
    Property Book System–Revised for the Army, the Table of Allowance for the Navy,
    and AFEMS for the Air Force. We did not test the reliability or accuracy of these
    property databases. However, we were able to provide conclusions and
    recommendations based on the data.

    Audit or Evaluation Type, Dates, and Standards. We performed this financial-
    related audit from May 2000 through April 2001 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We did our work in accordance with generally accepted
    Government auditing standards except that we were unable to obtain an opinion on our
    system of quality control. The most recent external quality control review was
    withdrawn on March 15, 2001, and we will undergo a new review.

    Contacts During the Audit. We visited or contacted individuals and organizations
    within the DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996, and
    DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive strategy for
    management controls that provides reasonable assurance that programs are operating as
    intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of USSOCOM management controls over the reporting of general PP&E on
    the DoD Agency-Wide financial statements. Specifically, we reviewed USSOCOM
    management controls over the flow of property data between the base level information
    systems, the data call results, and the financial statements. We also reviewed the
    management controls over the data call process for reporting personal property to
    DFAS Indianapolis and the USSOCOM FY 2000 Annual Statement of Assurance. The
    USSOCOM management had not completed a self-evaluation process applicable to
    those controls.

    Adequacy of Management Controls. We identified material management control
    weaknesses for USSOCOM as defined by DoD Instruction 5010.40. USSOCOM
    management controls for reporting real and personal property were not adequate to
    ensure that the general PP&E information recorded in the property systems of
    USSOCOM and its components was reported on the ODO and DoD Agency-Wide
    financial statements. A copy of the report will be provided to the senior official
    responsible for management controls in the Office of the Comptroller, USSOCOM.




                                          18
    Adequacy of Management’s Self-Evaluation. USSOCOM officials did not identify
    financial reporting of property, plant, and equipment as an assessable unit and,
    therefore, did not identify or report the material management control weaknesses
    identified by the audit.

Prior Coverage
    No prior coverage has been conducted on the subject during the past 5 years.




                                          19
 Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)
 Deputy Chief Financial Officer
 Deputy Comptroller (Program/Budget)
   Director for Accounting Policy

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Manpower and Reserve Affairs)
Naval Inspector General
Commander, Naval Facilities Engineering Command
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Combatant Commands
Commander in Chief, U.S. Special Operations Command

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Indianapolis
Director, Joint Staff

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                            20
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on Government
  Reform




                                         21
22
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                    23
24
Under Secretary of Defense (Comptroller)
Comments




                   25
26
United States Special Operations Command
Comments




                     27
     Revised,
     Page 12

     Revised,
     Page 9




28
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General, DoD,
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
David F. Vincent
Barbara A. Sauls
Elizabeth A. Lucas
H. Ronald Tollefson
Kenneth A. Weron
Brett A. Mansfield
Timothy M. Nelson
Leon D. Bryant
Christopher A. Ulrich
Crystal A. Oliver
Lisa C. Rose-Pressley
